No.

*

In the
SUPREME COURT OF THE UNITED STATES
%

Sara Ann Edmondson,
Petitioner,
vs.
Lilliston Ford Inc; JANE AND JOHN DOES 1-10,
individually and as owners, officers, directors, founders,
managers, agents, servents, employees, representatives
and/or independent contractors of LILLISTON FORD,
INC.; XYZ CORPORATIONS 1-10,
Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals for the Third Circuit

PETITION FOR WRIT CERTIORARI

Sara Ann Edmondson, Pro Se
71 Rainbow Trail
Pittsgrove, NJ 08318
609.501.2249

i.

QUESTIONS PRESENTED FOR REVIEW
v
%

-V.

■<

1.
Whether the Third Circuit and District Court are
acting in opposition to long standing, controlling law and
in splitting from other Circuits by refusing to follow the
directives established and implemented by this Court in
its Oscanyan ruling when a representing attorney
concedes in open court as a judicial admission that the
contract connecting the parties was corrupt in itself
containing intentional misrepresentations of essential
terms. Oscanyan v. Arms Co., 103 US 261 (1880); 28 USC
2072; 28 USC 1367.
2.
Whether a district court may refuse to consider
state law principles governing contract formation in
deciding whether such an agreement exists as prescribed
in 28 USC 1652 and by this Court in First Options of
Chicago, Inc. v. Kaplan, 514 U.S. 938 (1995).
3.
Whether a district court may refuse to issue an
executed order granting or denying summary judgment
on the issue of contract validity as prescribed in statute
28 USC § 56(a), thus challenging this Court’s Power to
Prescribe under 28 USC 2072 in First Options of Chicago,
Inc. v. Kaplan, 514 U.S. 938 (1995).
4.
Whether a Court of Appeals adjudicating a motion
under Federal Rule of Civil Procedure 60(d)(3) is
authorized to fabricate the existence of executed orders including an order on summary judgment under 28 U.S.C.
§ 56(a) - in its rulings that neither appear on the record on
appeal nor on the district court civil docket kept by the
clerk as prescribed under the Fed Rules of Civ Procedure
79 and FRAP 10(a)l-3.
5.
Whether the district court’s refusal to follow the
binding directives of this Court in 28 USC 56(a) and 28
USC 1652 constitutes fraud on the court under Federal
Rule Civil Procedure 60(d)(3).

r.

ii.

LEST OF PARTIES
1.

Sara Arm Edmondson, Petitioner
71 Rainbow Trail
Pittsgrove, NJ 08318

2.

Lilliston Ford, et al., Respondents
833 N. Delsea Drive
Vineland, NJ 08360

v

*

iii.

TABLE OP CONTENTS
t

A-

Questions Presented for Review

i

List of Parties

ii

Related Cases

ii

Table of Contents

iii

Citations of Opinions and Orders Entered

IV

Concise Statement of Jurisdiction

v

Table of Authorities

vi

Petition For A Writ of Certiorari

1

Opinions Below

1

Jurisdiction

1

Statutes and Const’! Provisions Involved

1

Introduction and Statement of the Case

2

Reasons for Granting the Petition

8

Appendix Table of Contents

22

IV.

CITATIONS OF OPINIONS AND ORDERS ENTERED
Edmondson v. Lilliston Ford et al., No. 13-cv-7704,
v

U.S. District Court for New Jersey. Judgment entered
April 26, 2017.
Edmondson v. Lilliston Ford et al., No. 14-1415,
U.S. Court of Appeals for the Third Circuit. Judgment
entered Nov. 4, 2014.
' •

Edmondson v. Lilliston Ford et al., No. 17-1991,

U.S. Court of Appeals for the Third Circuit. Judgment
entered Jan. 11, 2018.
Edmondson v. Lilliston Ford et al., No. 18-2203,
U.S. Court of Appeals for the Third Circuit. Judgment
entered July 18, 2019.

V.

CONCISE STATEMENT OF JURISDICTION

V

A.

Petitioner’s complaint on the Federal District Court
Docket No. 13-cv-7704 under the Magnuson-Moss
Warranty Act, 15 USC 2301, and Odometer Fraud gave
rise to jurisdiction in the Federal District Court. State
claims gave rise to supplemental jurisdiction, 28 USC
1367, in the Federal venue.

vi.
TABLE OF AUTHORITIES
i

Cases
Page
Clark v. Commonwealth of Pennsylvania,
128 U.S. 395, 9S. Ct 113, 32 L.Ed. 487, 488 .
15
Clune v. United States, 159 U.S. 590, 593,
40 L.Ed. 269, 271
......................................
15
Dickerson v. United States, 530 U.S. 428, 437
(2000)..............................................................
8
Erie Railroad Co. v. Tompkins, 304 U.S. 64 (1938) .... 17
First Options of Chicago v. Kaplan, 514 U.S.
at 944,115 S.Ct. (1920)
................................
16
Giannone v. U. S. Steel Corp., 238 F.2d 544,
547 (3d Cir. 1956) ...........................................
9
Glick v. White Motor Co., 458 F.2d 1287,
1291 (3d Cir. 1972) ...........................................
9
Herring v. U.S., 424 F.3d 384 (3d Cir. 2005)......
20
Oscanyan v. Arms Co, 103 U.S. 261, 263 (1880)
7,9
Quilloin v. Tenet Healthsystem Phila., Inc.,
673 F.3d 221, 227 (3d Cir 2012)
.....................
13
Root Refining Co. v. Universal Oil Products Co.
169 F.2d 514, 534 (3d Cir. 1948)
................... .
19
Scudder v. Union Nat. Bank, 91 U. S. 406 .........
16
Spinetti v. Service Corp. International,
324 F.3d 212 (3d Cir.2003) .............................. 4, 6,18,19
Susquehanna Boom Co., v. West Branch Boom Co.,
110 U.S. 57, 28 L.Ed. 69, 70 (1884) ........................... 15
Swift v. Tyson, 41 U.S. 16 Pet. 1 1 (1842) ............... 18

Statutes
28 USC 56(a)
28 USC 1291
28 USC 1367
28 USC 1652
>

12
17
16
14,16

12

28 USC 2072

i

Rules
Federal Rule Civil Procedure 56(a)
Federal Rule Civil Procedure 60(d)(3)
Federal Rule Civil Procedure 79
Federal Rule Appellate Procedure 10
Moore’s Federal Practice 160.33

12
8,19
8, 14
8,14
20

Treatise
Restatement (Second) of Contracts 205
Restatement (Second) of Contracts 241

T*

App H
App H

1
PETITION FOR A WRIT OF CERTIORARI
Sara Ann Edmondson petitions for a writ of certiorari to
review the judgment of the United States Court of
Appeals for the Third Circuit in this case.

!

OPINIONS BELOW
The Third Circuit’s opinions are reported at Edmondson
v. Lilliston Ford et al., CA 18-2203 and CA 17-1991 (3rd
Cir. 2018 and 2019) and reproduced at Appendices B & C.
The Third Circuit’s denial of petitioner’s motion for
reconsideration and rehearing en banc is reproduced at
Appendix A.

JURISDICTION
The Court of Appeals entered judgment on May 15, 2019.
Appendix B. The court denied a timely petition for
rehearing en banc on July 18, 2019. Appendix A. This
Court has jurisdiction under 28 U.S.C. § 1254(1).
STATUTES AND CONSTITUTIONAL PROVISIONS
INVOLVED
This case involves interpretation of statutory provisions
28 USC 56(a), 28 USC 1291, 28 USC 1292, 28 USC 1367
and 28 USC 1652.

A*

..

2

INTRODUCTION AND STATEMENT OF THE CASE
The parties entered into a commercial agreement through
Respondents’ contract of adhesion. In less than 24 hours,
issues of consumer fraud surfaced.
This litigated matter was initiated by Lilliston Ford
et ai. (Respondents) in the Superior Court of New Jersey
in June 2012 and was cross petitioned by Sara Ann
Edmondson (Petitioner) with consumer fraud in August
2012 in the Superior Court of New Jersey Law Division;
the matters were consolidated. The cases were later
dismissed without prejudice by the Superior Court of
New Jersey in June 2013. Petitioner initiated arbitration
through the American Arbitration Association (AAA) in
November 2013; Respondent, the drafter and originator of
the contract, refused to pay the costs associated with
arbitration and the matter was closed by the AAA and
directed to the Federal District Court.

3
In December 2013, Petitioner filed a complaint in
the Federal District Court of New Jersey where a
protracted litigation ensued. In February 2014, Petitioner
moved to compel arbitration under 9 USC 4, which was
immediately denied by the Federal District Court. The
Third Circuit Court of Appeals reversed the order in
Edmondson v. Lilliston Ford, Inc., 593 F. App’x 108 (3d
Cir. 2014), and remanded the matter to the Federal
District Court for further proceedings.
In

June

2015,

the

Federal

District

Court

established jurisdiction and instructed the parties to
arbitrate pursuant to the terms of Respondents’ contract
of adhesion. Petitioner filed for arbitration with the AAA
for a second time. Respondents refused to pay the fees
associated with the arbitration, refused to arbitrate
before the AAA and submitted an alternative list of
“mediators” from which it asked Petitioner to choose.
The AAA provided Respondent a second opportunity to

4
adhere to the terms of its contract and noted that it had
*

never previously reviewed

nor filed a copy

of

Respondents’ arbitration clause; Respondent refused and
added that it had severed its relationship with the AAA
years prior.

On August 10, 2015, the AAA declined to

administer Respondents’ arbitration and referred the
matter back to the Federal District Court.
Given the written, evidentiary admissions by both
the AAA and the Respondents that essential terms in its
contract

had

been

intentionally

misrepresented,

Petitioner moved for summary judgment under a contract
validity challenge, which this Court prescribes in First
Options Chicago and the Third Circuit prescribes in
Spinetti v. Service Corp. Int’l. The Federal District Court
conducted oral arguments on summary judgment on
January 27, 2016. In open court, the Respondents, who
are the drafters of the contract, again acknowledged that
it had severed its relationship with the AAA years prior as

5
it refused in court to arbitrate before or through it and
I

also refused to pay the fees associated with arbitration.
These were Respondents’ untruths unknown to Petitioner
that needed no further inquiry. The Federal District Court
instructed Petitioner to choose a mediator from the list
previously provided by Respondents in its August 2015
correspondence. Petitioner demanded a written order of
instructions from the District Court encapsulating the
hearing while also asking for an executed order either
granting or denying summary judgment challenging
contract validity.
On February 28, 2016, the Federal District Court
issued a Memorandum Order [74] in response to “Sara
Ann Edmondson’s ‘Demand for District Court Order
Granting or Denying Motion for Summary Judgment’”; the
Memorandum

Order

acknowledges

Respondents’

repeated judicial admissions that “it had severed its ties
—

with the association years” and that it “disputed that it

6
should advance the filing fees”. The Memorandum order
ended by “directing the parties to agree on the selection
of an arbitrator by 3/10/16” and “administratively
terminating QZ Motion for Summary Judgment as
improperly filed”. (Appendix E) Petitioner responded,
citing Spinetti, which is a Third Circuit case instructing
the district courts to look to State contract law to
determine the validity of a contract, again demanding an
order granting or denying summary judgment on the issue
of the contract and stating that directing the parties to
“agree on the selection of an arbitrator” would breach the
terms of the contract had the contract been valid.
In response to Petitioner, the Federal District
Court vacated its prior memorandum order [74] and
replaced it with a Motion to Show Cause [77] on
Respondents.

Ultimately, the Federal District Court

forced arbitration without reviewing or following the
directives of this Court on the obligations associated with

7

judicial admissions in its ruling, Oscanyan, which
includes reviewing New Jersey State Contract Laws to
determine the viability of Respondents’ contract, and
without issuing an executed order granting or denying
summary judgment.
9 USC 16 prevents seeking Appellate review at this
juncture, therefore, Petitioner had to await final judgment
in order to appeal to the Third Circuit, which was done in
June 2017 in CA 17-1991.
In the Third Circuit Appeal’s ruling in CA 17-1991,
the panel acknowledges the appearance of a Motion for
summary judgment challenging the validity of the
contract on the record but fails to mention any executed
order granting or denying summary judgment. The Third
Circuit ruling also acknowledges Respondents’ judicial
admission of intentional misrepresentation of essential
terms in its contract.
**

8
In May 2018, Petitioner submitted a Motion under
Rule 60(d)(3) which ultimately headed to the Third
Circuit Court of Appeals on June 28, 2018 and was given
the docket number CA 18-2203. On May 15, 2019, almost
a full year later, the Third Circuit Court of Appeals issued
its ruling on 18-2203 (App. B) where it stated, “The
District Court denied the motion as improperly filed ...”
Fortunately, FRAP 10 and FRCP 79 provide evidence that
- in fact - no executed order either granting or denying
summary judgment exists in the record or on the docket.
The motion, however, was administratively terminated
from the docket by order of the Court.

REASONS FOR GRANTING THE PETITION
“The law in this area is clear. This Court has supervisory
authority over the federal courts, and we may use that
authority to prescribe rules of evidence and procedure
that are binding in those tribunals.”
-Dickerson v. United States, 530 U.S. 428, 437 (2000).

THE KEY QUESTIONS PRESENTED ARE IMPORTANT
AND AFFECT FEDERAL PROCEEDINGS THAT RELATE

9
TO THE LEGAL SYSTEM’S FOUNDATION, INTEGRITY
AND ORDER
L The Third Circuit has so far departed from the accepted
and usual course of judicial proceedings as to call for an
exercise of this Court's supervisory power.
A.

Oscanyan v. Arms Co.

The Third Circuit has a documented history of rulings
regarding judicial admissions: “[Jjudicial admissions' []
are admissions in pleadings, stipulations, etc. [] which do
not have to be proven in the same litigation.” Giannone v.
U. S. Steel Corp., 238 F.2d 544, 547 (3d Cir. 1956). “It has
been held that judicial admissions are binding for the
purpose of the case in which the admissions are made
including appeals, and that an admission of counsel
during the course of trial is binding on his client.” Glick v.
White Motor Co., 458 F.2d 1287, 1291 (3d Cir. 1972)
(citations omitted). When a party has admitted to a fact,
the opposing party may “dispense with proof of facts for
which witnesses would otherwise be called” as to that
issue, and “any fact, bearing upon the issues involved,

10
admitted by counsel, may be the ground of the court's
procedure equally as if established by the clearest proof.”
Oscanyan v. Arms Co., 103 U.S. 261, 263 (1880). (App. K)
This Court ruled in Oscanvan v. Arms Co.. 103 US
261 (1880),
a.
Where it is shown by the opening statement
of counsel for the plaintiff that the contract on
which the suit is brought is void as being either in
violation of law or against public policy, the court
may direct the jury to find a verdict for the
defendant.
b.
A court is, in the due administration of
justice, bound to refuse its aid to enforce such a
contract although its invalidity be not specially
pleaded.
This Court continued,

*•

"According to the settled practice in the courts of
the United States, it was proper to give the
instruction, if it were clear the plaintiff could not
recover. It would have been idle to proceed further
when such must be the inevitable result. The
practice is a wise one; it saves time and costs; it
gives the certainty of applied science to the results
of judicial investigation; it draws clearly the line
which separates the provinces of the judge and
jury, and fixes where it belongs the responsibility
which should be assumed by the court."
OSCANYAN v. ARMS CO, 103 U.S. 261, 265 (1880)

11
This Court furthered
“But, the question in regard to the disposition of
this case does not depend upon rules of pleading.
The plaintiff, in his opening statement, stated the
facts which he claimed to be true, and upon which
he should rely. It is not suggested that they were
not stated truthfully. These facts satisfy me that
the contract was contra bonos mores. Such an
objection it is not possible for the defendant to
waive. If he undertakes to waive or to disregard it,
the duty of the court is still imperative, not to
enforce a contract which the law regards as
usurious to public morals and against public
policy.” Oscanyan v. Arms Co, 103 U.S. 261 (1880).
It is clear where this Court has stood on the issue of
judicial admissions by representatives’ counsel in open
court; this has remained constant over nearly 140 years.
Further, Petitioner is under no obligation to plead
invalidity of contract nor does Petitioner have the ability
to waive the judicial admissions made by Respondents’
attorney in open court. The responsibility to address this
issue rests with the court, “in the due administration of
justice”. Oscanyan . Arms Co., 103 U.S. 261 (1880).

12
B.

28 USC 66(a)

The Federal Rules of Civil Procedure, which are
promulgated by the Supreme Court under the authority
vested by the US Congress, 28 USC 2072, to regulate
practice in district courts, are supervisory rules. Such
procedures are binding on inferior courts. Allowing the
Third Circuit to act in opposition to the supervisory rules
established by the US Supreme Court opens the door for
other District Courts in the Circuit to follow suit.
Federal Rule Civil Procedure 56(a) (28 USC 56)
clearly instructs district courts to issue an order granting
or denying summary judgment. Petitioner’s motion for
summary judgment

resulted

from

an

evidentiary

admission made by Respondents in reference to the
formation of its contract.

The evidentiary admission

became a judicial admission offered by Respondents’
counsel in open court and chronicled by the district court
in its Memorandum Order (Appendix E). The inferior
court in this matter was bound by both Oscanyan and the

13
state law rule of decisions under 28 USC 1652. The Third
Circuit is aware of its obligations - “Only ‘final decisions
of the district courts’ are appealable, 28 U.S.C. § 1291, and
because Quilloin neither filed nor claims to have filed a
motion to dismiss or for summary judgment, the District
Court issued no corresponding order.” Quilloin v. Tenet
Healthsystem Philadelphia, Inc., 673 F.3d 221, 227 n.3 (3d
Cir. 2012)
Accordingly, the Quilloin ruling clearly establishes
that Petitioner was entitled to a “corresponding order” on
the motion for summary judgment pursuant to this
Court’s directives in Oscanyan. In the CA 17-1991 ruling,
however, there is no mention of a corresponding order
denying summary judgment on the issue of contract
validity which this Court addressed in First Options
Chicago. In the CA 18-2203 ruling, a District Court order
denying summary judgment is mentioned twice, although
no such evidence exists in the record.

14
The district court could have denied the motion,
but knew it lacked legal authority to do so; hence, it
administratively terminated the motion so as not to be
compelled

to

conduct the necessitated

directives

prescribed in 28 USC 1652 and Oscanyan.

C.

FRAP 10 and FRCP 79

The Third Circuit’s May 15, 2019 ruling in CA 18-2203
(App. B, page 4a) justifies its ruling in CA 17-1991 by
offering that it had rejected the motion for summary
judgment on contract validity that had been previously
denied by the district court. Although its ruling states,
“The District Court denied the motion” and “We find no
abuse of discretion in the District Court’s denial of the
motion”, the district court record maintained by the Clerk
pursuant to Federal Rule Civil Procedure 79 as well as the
District Court’s February 18, 2016 memorandum order do
not substantiate the Third Circuit’s claim. Appendices G
& E demonstrate in real time that no such executed order

15
granting or denying summary judgment ever existed in
the record.
Also in this ruling, the Appellate Panel insists again
on evidence that simply does not exist.

There is and

never was a Motion under Rule 60(b)(3) in the record.
Had Petitioner submitted a Rule 60(b)(3) motion, the
Panel would never have had to point out the definition of
the Rule. (App. B)
In Susquehanna Boom Co., v. West Branch Boom
Co., this Court stated, “Our jurisdiction extends only to a
review of the judgment as it stands in the record. We act
on the case as made to the court below when the
judgment was rendered. 110 U.S. 57, 28 L.Ed. 69, 70
(1884). Citing Clark v. Commonwealth of Pennsylvania,
this Court offered, “We act only upon the record of the
court below.” 128 U.S. 395, 9S. Ct 113, 32 L.Ed. 487, 488.
Additionally, in Clune v. United States, this Court added,
“It is beyond the jurisdiction of this Court to consider and

16
rule upon defendant’s supposed facts, outside and
opposite the record on appeal. 159 U.S. 590, 593, 40 L.Ed.
269, 271.
D.

28 USC1662

This Court’s ruling in First Options of Chicago v. Kaplan
determined that Courts generally should apply ordinary
state law principles governing contract formation in
deciding whether such an agreement exists, 28 USC 1367.
First Options of Chicago v. Kaplan, 514 U.S. 938 (1995).
In Oscanyan, this Court opined, “Matters bearing upon
the execution, the interpretation and the validity of a
contract, are determined by the law of the place where
the contract is made. Matters connected with its
performance are regulated by the law prevailing at the
place of performance.” Scudder v. Union Nat. Bank, 91 U.
S. 406.
This Court incorporated 28 USC 1652 in the
judicial admission process: the mandate that State Laws

17
must provide the rules of decision for the validity of a
contract.

“The general rule undoubtedly is that the

validity of a contract is to be decided by the law of the
place where it is made, unless it is to be performed in
another country” OSCANYAN v. ARMS CO, 103 U.S. 261
277 (1880) On the issue of state law as rule of decision on
whether a contract exists, this Court has been sound.
The district court did not deny summary judgment
because the Erie Doctrine, 28 USC 1652, and First
Options of Chicago mandate state law review of general
commerce issues and Respondents’ judicial admission of
misrepresentations of essential terms in its contract
bound the court’s hands under Oscanyan; consequently,
denying the summary judgment was not an option.
However, sequestering a motion for summary judgment as done by the inferior court in this matter - in order to
circumvent

judicial

obligations,

directives

and

prescriptives under Oscanyan, 28 USC 1291 and 28 USC

18
1652 is fraud and - in addition to reaching back to Swift v.
Tyson where federal courts were not bound by the
decisions of state courts - is so far departed from the
accepted and usual course of judicial proceedings as to
call for an exercise of this Court's supervisory power.
Swift v. Tyson, 41 U.S. 1 (1842).
2.
The District Court ruling and the affirmed ruling by
the Third Circuit Court have decided an important federal
question in a way that conflicts with relevant decisions of
this Court and from the State Court of last resort
In Roach v. BM Motoring, LLC, a case with a statement of
facts duplicating this instant matter, the New Jersey
Supreme Court offers that issues of contract formation
are resolved through the flexible criteria in the
Restatement (Second) of Contracts (. 155 A. 3d 985 - NJ
Supreme Court 2017. (Appendix H)
The Third Circuit Court of Appeals has its own
version of this Court’s First Options Chicago in Spinetti v.
Service Corp. Int’l. In its ruling in Spinetti, the Third
Circuit Court of Appeals offered:

19
Under the FAA, federal arbitration policy must be
implemented in lock-step with a determination of
contract validity under state law. First Options,
514 U.S. at 944, 115 S.Ct. 1920. We therefore turn
to whether, under Pennsylvania contract law, the
i
Stricken portions of the arbitration agreement can
be considered the essential part of the bargain.
Deibler, 81 A.2d at 560-561.
We have no
difficulty in concluding that the primary purpose of
the arbitration bargain entered into by Spinetti and
SCI was not to regulate costs or attorney's fees.
Instead, it was designed to provide a mechanism to
resolve employment-related disputes.. 324 F.3d 212
(3d Cir.2003)
IL THE COURTS GUIDANCE IS NEEDED TO AFFIRM A
PROPER SUPERVISORY CHECK ON ABUSIVE
JUDICIAL BEHAVIOR
Certiorari is warranted because the decisions below
misapprehended important questions going to the
legitimacy of our legal system. The conduct of Federal
judges must be beyond reproach. Yet the District Court
and the Third Circuit panel overlooked egregious
misconduct on its part in the course of misconstruing the
appropriate scope of evidence reviewable in connection
with a Rule 60(d)(3) motion. However, in quoting Root
Refining Co. v. Universal Oil Products Co., 169 F.2d 514,

20

534 (3d CIr. 1948), a judgment’s freedom from fraud is a
matter of “vast public importance” that “may always be
the subject of further judicial inquiry”.

Furthermore,

citing Moore’s Federal Practice H 60.33 at 515 (1971 ed.),
fraud on the court should “embrace only that species of
fraud which does or attempts to defile the Court itself, or
is a fraud perpetrated by officers of the Court so that the
judicial machinery cannot perform in the usual manner its
impartial task of adjudging cases that are presented for
adjudication.”
The Third Circuit itself established parameters for fraud
on the court in Herring v. U.S., 424 F.3d 384 (3d Cir. 2005)
as:
In order to meet the necessarily demanding
standard for proof of fraud upon the court we
Conclude that there must be: (1) an intentional
fraud; (2) by an officer of the court; (3) which is
directed at the court itself; and (4) in fact deceives
the court.1
We further conclude that a
determination of fraud on the court may be
justified only by “the most egregious misconduct
directed to the court itself,: and that it “must be
supported by clear, unequivocal and convincing
evidence.”

21
The footnote provides citations from other Circuits
having established guidelines around fraud on the court.
The Court should also grant certiorari to emphasize the
duty the Federal Judiciary owes to upholding justice. The
errors below are particularly troublesome because they
form the basis for the courts excusing intentional bad
acts by judicial agents.
CONCLUSION For the foregoing reasons, the
Court should grant a writ of certiorari.

